                     TESTIMONY OF
                   ROGER C. VIADERO
                  INSPECTOR GENERAL
          U.S. DEPARTMENT OF AGRICULTURE
          BEFORE THE HOUSE COMMITTEE ON
                     AGRICULTURE
          SUBCOMMITTEE ON LIVESTOCK AND
                     HORTICULTURE
                      JULY 27, 2000


Thank you, Mr. Chairman and members of the Subcommittee. Before we begin today, I

would like to introduce a member of my staff who is here with me today:

Gregory S. Seybold, Assistant Inspector General for Investigations.



Thank you for asking me to discuss our investigations of Hunts Point Market, located in

the Bronx, New York, which involve corrupt graders of the Agricultural Marketing

Service’s (AMS) Fruit and Vegetable Programs. These graders accepted bribes to help

wholesalers cheat producers out of the true value of their goods.



As you know, AMS graders are responsible for inspecting shipments of fresh fruits and

vegetables received at wholesale locations throughout the country. The inspections,

which are voluntary and requested at the discretion of the wholesalers, are intended to

determine whether the delivered produce meets the U.S. Department of Agriculture

(USDA) grading standards—for example, “U.S. Extra Fancy, U.S. No. 1, or U.S.

Utility”—as promised by the grower in the purchase contract with the wholesaler. USDA
grades take into account various factors affecting the quality and condition of produce,

such as bruising, decay, color, and shape. Slight variances in grade can dramatically

impact the overall contract price, sometimes by several thousands of dollars, depending

on the size and value of the shipme nt. If a shipment of produce fails to meet the agreed-

upon grade in the contract, generally the wholesaler is entitled to renegotiate the purchase

price downward. Thus, the integrity of the AMS graders is essential for fair prices to be

paid to producers.



Because of our concern about the potential for public corruption in the Federal inspection

process at this market, for more than a decade we have been developing information

relating to criminal activity at Hunts Point. We have conducted extensive electronic

surveillance and undercover operations, reviewed business and inspection documents,

and interviewed witnesses. These efforts led to our developing inside sources and

cooperating witnesses. Only after developing these informants, were we able to penetrate

the bond of mutual trust and silence that shielded this crime from discovery. These

sources informed us that produce wholesalers on a daily basis were paying AMS graders

$50 to $100 per inspection in order to ensure that the graders would “knock” loads, so

that the wholesalers could then negotiate lower prices.



With our cooperating witnesses, we developed an extensive undercover operation. Our

limited technical (i.e., video surveillance) resources were not sufficient, however, to carry

out the operation, so we sought and obtained these resources from the Federal Bureau of

Investigation (FBI).




                                              2
Our subsequent investigation documented the massive corruption at Hunts Point,

corruption that was systematic and had been occurring for more than 20 years. In fact,

evidence of bribery was obtained against most of the graders who worked at the market

and wholesaler firms that operated at the market. I have brought with me an enlargement

of a photograph of Hunts Point, which gives you an idea of its size and the amount of

produce it handles.



The bribes paid by wholesalers were paid in various ways and in various amounts.

Sometimes wholesalers paid the cash to the graders after the shipments were

downgraded. Other times, the wholesalers kept track of all shipments during a given

period of time, including those that were downgraded and the names of the AMS grader

who downgraded them. The wholesaler then provided one large payment to one of the

corrupt graders, who shared the monies with the other corrupt graders, usually at lunch.



If a corrupt wholesaler did not know a grader conducting an inspection, the wholesaler

declined the inspection with an excuse, and asked that it be rescheduled in hopes of

having a corrupt grader conduct the rescheduled inspection. However, if the grader was

“on the take,” he would use the code phrase, I am “one of the boys,” to signal that he

accepts bribes. This was generally sufficient, and the wholesaler would then tell the

grader to go back and conduct the inspection. New graders were sized up for several

months to determine whether they should be approached with an offer to join this




                                             3
scheme. A corrupt supervisory AMS official furthered the scheme by matching corrupt

graders with corrupt wholesalers.



The investigation also found that the total amounts of bribe monies received by the

graders were substantial and were used for a variety of purposes. One grader netted

between $40,000 and $100,000 per year over a 15-year period. He lived off his bribe

monies without touching his Federal salary, which he deposited directly into an account.

The grader purchased a new sport utility vehicle with cash and when arrested had

approximately $3,600 in a shoebox in his closet. Another grader used his bribe monies

to solicit prostitutes, purchase jewelry for these prostitutes, and purchase weapons (e.g.,

an 1861 Springfield rifle). Another grader used the monies to purchase illegal drugs to

support his habit.



Thus far in the investigation, we have developed evidence of bribery against 9 AMS

graders, including an AMS supervisory official, and 15 wholesalers at Hunts Point. The

9 graders were charged with violating the Racketeering Influenced Corrupt Organization

statute (RICO) and the 15 wholesalers were charged with bribery. Investigation of

multiple firms at Hunts Point is ongoing.



The public corruption by AMS employees and wholesalers at the Hunts Point Market

reduced producers’ income for their goods, provided illicit gains for wholesalers and for

corrupt graders, and adversely affected the public’s trust of Federal employees.

Combating this type of criminal activity is one of the Office of Inspector General’s (OIG)




                                              4
highest priorities. We are, therefore, conducting investigations of allegations relating to

similar corruption in other markets around the Nation. I cannot discuss these

investigations in detail as they are ongoing. To that end, I want to thank the Committee

for assisting OIG by providing a link from the Committee’s Internet Web site to the OIG

homepage. This link has facilitated the process by which producers have a means to

report fraudulent activity by USDA graders and Hunts Point produce wholesalers.



Before I close, I would be remiss if I did not inform you, as I have repeatedly informed

Congress for the past five years, that our ability to combat crime and corruption, both

internal and external to USDA, is in dire jeopardy due to steady erosion of our funding

level. Today, I have approximately 100 less OIG special agents than our authorized

ceiling 5 years ago. This equates to a “conservative” estimate of 500 fewer investigations

of crimes against USDA and corruption internal to USDA operations that is unaddressed

each year.



This concludes my statement, Mr. Chairman. I thank you again for the opportunity to

address the Subcommittee and appreciate your continued assistance and support. I would

be pleased to answer any questions you or other members of the Subcommittee might

have.




                                              5
